<html>
<title> - ADVANCING THE NEXT GENERATION OF SOLAR AND WIND ENERGY TECHNOLOGIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                    ADVANCING THE NEXT GENERATION OF
                   SOLAR AND WIND ENERGY TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 15, 2019

                               __________

                           Serial No. 116-18

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
36-303 PDF                WASHINGTON : 2019             

       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
             
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              RALPH NORMAN, South Carolina
KENDRA HORN, Oklahoma                MICHAEL CLOUD, Texas
JERRY McNERNEY, California           VACANCY
BILL FOSTER, Illinois
SEAN CASTEN, Illinois

                         C  O  N  T  E  N  T  S

                              May 15, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Conor Lamb, Chairman, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     6
    Written Statement............................................     7

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written statement............................................    10

                               Witnesses:

Dr. Peter Green, Science and Technology Officer and Deputy 
  Laboratory Director for the National Renewable Energy 
  Laboratory
    Oral Statement...............................................    11
    Written Statement............................................    14

Ms. Abby Hopper, Esq., President and CEO of the Solar Energy 
  Industries Association
    Oral Statement...............................................    23
    Written Statement............................................    25

Mr. Kenny Stein, Esq., Director of Policy at the Institute for 
  Energy Research
    Oral Statement...............................................    31
    Written Statement............................................    33

Mr. Tom Kiernan, President and CEO of the American Wind Energy 
  Association
    Oral Statement...............................................    37
    Written Statement............................................    39

Discussion.......................................................    44



                    ADVANCING THE NEXT GENERATION OF
                   SOLAR AND WIND ENERGY TECHNOLOGIES

                              ----------                              


                        WEDNESDAY, MAY 15, 2019

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Conor Lamb 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Lamb. All right. This hearing will come to order. 
Without objection, the Chair is authorized to declare a recess 
at any time.
    Good morning. Welcome to today's hearing, ``Advancing the 
Next Generation of Solar and Wind Energy Technologies.'' I want 
to thank our panel of witnesses for being here today. We're 
waiting on one more who is on his way in. Very excited to hear 
your perspectives on the importance of Federal support for this 
crucial technology and what our next steps need to be.
    Solar and wind energy, we all know, reduce air pollution, 
support thousands of American jobs, and can reduce energy costs 
to our constituents across the country, which is very 
important. The solar and wind industries have grown 
tremendously over the past 10 years, and the prices for their 
power have fallen. I have numbers here that show the price of 
wind energy having fallen 69 percent and the price of solar 
falling 88 percent. These technologies are now forms of energy 
that are in the mainstream providing cleaner air, creating a 
new green-collar sector, and lowering our utility bills. We 
believe that the solar and wind energy combined industries now 
employ over 350,000 Americans.
    These industries, like many, are a success story when it 
comes to talking about Federal research and development. The 
Department of Energy established the Solar Energy Research 
Institute back in 1977, which later expanded and became NREL, 
the National Renewable Energy Laboratory. NREL set many of the 
early records for solar photovoltaic panels efficiency and they 
demonstrated some of the first concentrated solar power 
projects. They also house the National Wind Technology Center, 
and they've led offshore wind energy demonstration projects 
across the United States.
    Despite these advances, we still need some serious 
technological leaps in order to grow at a significant scale. 
Even after all this work in 2018, solar and wind energy 
together combined to produce just 8.2 percent of our 
electricity in the U.S. It also appears that U.S. emissions 
increased from 2017 to 2018, and so we have some serious work 
to do.
    I also think it's important to acknowledge that this 
discussion is not being had inside a vacuum or only within the 
boundaries of the United States. China understands very well 
the importance of developing and deploying these technologies. 
As of today, it's hard not to say that they are the clear 
leader in clean energy investment with over $100 billion 
invested in this space in 2018 alone.
    The United States was second, but we were $35 billion 
behind China. We should close this gap. I believe that our 
money is better spent here and that we have the talent and 
technology and pipeline to do this. But this is going to be a 
market in the 21st century. There will be many more jobs at 
stake, there will be many more technologies at stake, and I 
want all those to be created here.
    I'm looking forward then to using this hearing to learn a 
little bit more about the opportunities that are in front of us 
to make sure that we spend Federal research dollars 
productively and smartly to have the best results for our 
constituents.
    Thank you again for appearing before me, and with that, I 
would like to recognize my colleague Mr. Weber for an opening 
statement.
    [The prepared statement of Chairman Lamb follows:]

    Good morning and thank you to our great panel of witnesses 
for being here today. I am excited to hear your valuable 
perspectives on the importance of federal support for solar and 
wind energy research, development, and demonstration activities 
and the next steps we need to be taking.
    Solar and wind energy reduce air pollution, support 
thousands of American jobs, and can reduce energy costs to our 
constituents across the country. The solar and wind energy 
industries have grown tremendously over the past 10 years, and 
the prices for their power have fallen dramatically. In the 
last decade the price for wind energy fell 69%, and the price 
for solar fell 88%. These cost reductions have made wind and 
solar mainstream, resulting in cleaner air, a burgeoning green-
collar sector, and lower utility bills. I am particularly 
excited to note that the solar and wind energy industries now 
employ over 350,000 Americans.
    These industries, like many, have greatly benefited from 
federally funded R&D. It was the Department of Energy that 
established the Solar Energy Research Institute back in 1977, 
which later expanded and became the National Renewable Energy 
Laboratory, commonly known as NREL. NREL is responsible for 
setting many of the early records in solar photovoltaic panels' 
efficiencies and demonstrating some of the first concentrating 
solar power projects. NREL also houses the National Wind 
Technology Center, and in recent years, led cutting edge 
offshore wind energy demonstration projects in the U.S.
    Despite the advances to solar and wind energy technologies, 
continued innovation in these technologies is needed to advance 
their growth at a significant scale. In 2018, solar and wind 
energy together combined to produce just 8.2% of our 
electricity in the U.S. (according to most recent data from 
EIA) and challenges remain to their widespread deployment. 
Moreover, studies suggest U.S. emissions increased from 2017 to 
2018. This is an alarming reversal after three years of 
declining emissions and is concerning as we continue our 
efforts to reduce emissions and mitigate climate change.
    I believe that net-zero emissions technologies such as 
solar and wind, and a broad array of other technologies, will 
play crucial roles in reducing greenhouse gas emissions from 
the electricity sector. Whether it's looking at new, more 
efficient materials for solar photovoltaic panels, or 
developing the next generation of floating, offshore wind 
turbines, next generation solar and wind energy technologies 
can and should play a key role in the transition to a clean 
energy economy.
    That is why I look forward to using this hearing to further 
inform and refine the draft pieces of legislation that will 
guide DOE's solar and wind energy R&D activities. Each draft 
aims to provide stronger direction to the Department, 
reflecting significant changes to these technologies, their 
industries, and their future research needs. We need to ensure 
that we are doing everything we can to advance solar and wind 
energy technologies. With their potential for increased carbon-
free electricity, American jobs, and lower electricity bills, 
we should work to reassert American leadership in this sector.
    Thank you again for appearing before our committee and I'm 
looking forward to today's hearing.

    Mr. Weber. Thank you, Chairman Lamb, for holding today's 
Subcommittee hearing. I'm looking forward to hearing from our 
witnesses--Mr. Stein, we're glad you could join us--about the 
value of the state of solar and wind technologies in the U.S. 
and about DOE's (Department of Energy's) clean energy research, 
development, demonstration, and commercialization activities in 
these areas.
    Solar and wind R&D is funded through the Department's 
Office of Energy Efficiency and Renewable Energy or EERE. After 
substantial growth during the Obama Administration, EERE is by 
far the largest applied research program. At almost $2.4 
billion in annual funding, EERE is bigger today than the 
funding provided for research in fossil energy, nuclear energy, 
electricity, and cybersecurity combined. The research programs 
for solar and wind also expanded during this unprecedented 
growth in spending. So I'm a little surprised to see my 
colleagues on the other side of the aisle propose legislation 
to grow these offices even more with an almost 60-percent 
increase in spending for wind R&D and almost 30-percent 
increase in solar R&D.
    And I want to be clear. I'm very supportive of DOE funding 
for innovative research in new solar and new wind technologies. 
Most of you will know Texas is a leader in wind energy. I'm 
also supportive of the kind of basic research like advanced 
computing, machine learning, and advanced manufacturing and the 
development of new materials that benefits not just solar and 
wind but all forms of energy technologies. But we need to take 
a responsible and balanced approach to energy research and 
ensure that Federal investments go toward work that truly could 
not be accomplished by the private sector.
    Let me add in the private sector, business is booming for 
wind and solar. Did I mention Texas is a leader in that? Last 
year, American renewable energy produced a record 742 million 
megawatt hours of electricity. Now, Mr. Chairman, you said that 
it was 8.2 percent. Our stats show 18 percent of the U.S. 
electricity generation. Maybe when you add those two, get 26, 
divide by 2, we got 13 percent of electricity generation, and 
doubled its production, by the way, from a decade ago. Great 
progress is being made. This significant increase is almost 
entirely due to the incorporation of additional wind and solar 
power.
    Today, we're going to hear good news from our friends in 
these thriving industries that there are over 500 American 
factories building wind turbine parts, that a record 114,000 
Americans have jobs supporting the wind industry and that there 
are currently 250,000 Americans working in the $17 billion 
solar industry. It is abundantly clear that consumer demand is 
already driving increased deployment of these technologies. 
After all, this is what the industry is good at. But the 
private sector cannot conduct the fundamental research that 
lays the foundation for the next generation and the next 
technological breakthrough.
    That means focusing our Federal programs on innovative 
technologies that are not already commercially deployed. For 
example, at the Center for Next Generation of Materials Design 
led by National Renewable Energy Laboratory, NREL, researchers 
work on advancing computational materials designed to discover 
new novel materials. By pursuing this breakthrough science in 
materials, we can fundamentally improve the performance of 
solar energy technologies.
    With our national debt at over $20 trillion and rising and 
mandatory spending caps guiding budgets on everything from 
energy to national defense, we simply cannot afford to increase 
the spending in every program. So we need to focus our efforts 
on truly groundbreaking research. Let us not duplicate the 
efforts of American industry. By prioritizing fundamental 
research with broad application to all forms of energy, we can 
enable the private sector to build innovative market, reduce 
energy costs, and grow the American technology.
    And, Mr. Chairman, one more time, thank you. I'm going to 
yield back. I appreciate you doing this.
    [The prepared statement of Mr. Weber follows:]

    Thank you, Chairman Lamb, for holding today's subcommittee 
hearing. I'm looking forward to hearing from our witnesses 
about the value of the state of solar and wind technologies in 
the U.S., and about DOE's clean energy research, development, 
demonstration and commercialization activities in these areas.
    Solar and wind R&D is funded through the Department's 
Office of Energy Efficiency and Renewable Energy.
    After substantial growth during the Obama Administration, 
EERE is by far the largest applied research program.
    At almost $2.4 billion in annual funding, EERE is bigger 
today than the funding provided for research in fossil energy, 
nuclear energy, electricity, and cybersecurity combined.
    The research programs for solar and wind also expanded 
during this unprecedented growth in spending. So I'm surprised 
to see my colleagues on the other side of the aisle propose 
legislation to grow these offices even more - with an almost 
60% increase in spending for wind R&D and almost 30% increase 
in solar R&D.
    Now, I want to be clear - I'm supportive of DOE funding for 
innovative research in new solar and wind technologies.
    I'm also supportive of the kind of basic research - like 
advanced computing, machine learning and advanced 
manufacturing, and the development of new materials - that 
benefits not just solar and wind, but all forms of energy 
technologies.
    But we need to take a responsible and balanced approach to 
energy research and ensure that federal investments go towards 
work that truly could not be accomplished by the private 
sector. And in the private sector, business is booming for wind 
and solar.
    Last year, American renewable energy produced a record 742 
million megawatt hours of electricity.
    This is almost 18 percent of the U.S. electricity 
generation and double its production from a decade ago. This 
significant increase is almost entirely due to the 
incorporation of additional wind and solar power.
    Today, we'll hear good news from our friends in these 
thriving industries - that there are over 500 American 
factories building wind turbine parts, that a record 114,000 
Americans have jobs supporting the wind industry, and that 
there currently 250,000 Americans working in the $17 billion 
solar industry.
    It is abundantly clear that consumer demand is already 
driving increased deployment of these technologies. This is 
what the industry is good at.
    But the private sector can't conduct the fundamental 
research that lays the foundation for the next generation and 
the next technology breakthrough.
    That means focusing federal programs on innovative 
technologies that aren't already commercially deployed.
    For example, at the Center for Next Generation of Materials 
Design led by National Renewable Energy Laboratory (NREL), 
researchers work on advancing computational materials design to 
discover novel materials.
    By pursuing this breakthrough science in materials, we can 
fundamentally improve the performance of solar energy 
technologies.
    With our national debt at $18 trillion and rising, and 
mandatory spending caps guiding budgets on everything from 
energy to national defense, we simply can't afford to increase 
spending for every program. So we need to focus our efforts on 
truly groundbreaking research - not on duplicating the efforts 
of American industry.
    By prioritizing fundamental research with broad application 
to all forms of energy, we can enable the private sector to 
bring innovative new technology into the market, reduce energy 
costs, and grow the American economy.

    Chairman Lamb. Thank you. And the Chair now recognizes 
Chairwoman Johnson for an opening statement.
    Chairwoman Johnson. Thank you very much, Mr. Chairman, and 
thank you for having this timely hearing, the two most valuable 
renewable energy resources--solar energy and wind energy--are 
very important.
    Over the past 10 years, costs of both wind and solar energy 
have decreased dramatically, making them a vital part of the 
energy mix of the United States. According to a recent report 
from Austin-based analysis firm TXP, solar and energy saved 
Texans $5.7 billion in electricity costs from 2010 to 2017, 
compared to what they would have paid if these renewable energy 
sources were not part of the energy portfolio. And I might say 
the other energy is the highest in the Nation even though we 
are an oil-producing fossil fuel State.
    I am proud to say that Texas now leads the United States in 
installed wind energy capacity, with over 24 gigawatts of wind 
energy. That's enough energy to power over 7 million homes. The 
wind energy industry also brings tens of thousands of jobs to 
the State, including jobs at several manufacturing facilities 
that support the wind industry by making products like blades, 
towers, and turbine housing that China is trying to take away 
from us.
    All that being said, we still have significant investments 
we need to make to continue to innovate on these technologies, 
further bringing down their costs and making these technologies 
even more beneficial for Americans. In the wind industry, for 
example, we're exploring new technologies like offshore wind, 
which has significant potential for leveraging untapped energy 
resources near our coastal communities, and needs important R&D 
investments to help bring down costs. In the solar industry, we 
are continuing to explore new types of solar cells made of 
advanced materials with record-setting efficiencies, at 
affordable prices.
    We really can make investments that are both good for the 
environment and for the economy. That's why I'm looking forward 
to hearing from the distinguished witnesses assembled here 
today to learn how we can support innovation in the solar and 
wind industries, ensuring that these important energy resources 
can play an even larger role in our clean energy future.
    Thank you, and I yield back.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and thank you, Chairman Lamb, for holding this 
timely hearing on two of our most valuable renewable energy 
resources, solar energy and wind energy.
    Over the past ten years, costs of both wind and solar 
energy have decreased dramatically, making them a vital part of 
the energy mix of the U.S. According to a recent report from 
Austin-based analysis firm TXP, solar and wind energy saved 
Texans $5.7 billion in electricity costs from 2010 to 2017, 
compared to what they would have paid if these renewable energy 
sources were not part of the energy portfolio.
    I'm proud to say that Texas now leads the U.S. in installed 
wind energy capacity, with over 24 gigawatts of wind energy. 
That's enough energy to power over 7 million homes. The wind 
energy industry also brings tens of thousands of jobs to the 
state, including jobs at several manufacturing facilities that 
support the wind industry by making products like blades, 
towers, and turbine housings.
    All that being said, we still have significant investments 
we need to make to continue to innovate on these technologies, 
further bringing down their costs and making these technologies 
even more beneficial for Americans. In the wind industry, for 
example, we are exploring new technologies like offshore wind, 
which has significant potential for leveraging untapped energy 
resources near our coastal communities, and needs important R&D 
investments to help bring down costs. In the solar industry, we 
are continuing to explore new types of solar cells made of 
advanced materials with record-setting efficiencies, at 
affordable prices.
    We really can make investments that are both good for the 
environment, and for the economy. That's why I am looking 
forward to hearing from the distinguished witnesses assembled 
here today to learn about how we can support innovation in the 
solar and wind industries, ensuring that these important energy 
resources can play an even larger role in our clean energy 
future.
    With that, I yield back.

    Chairman Lamb. Thank you, Madam Chairwoman.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I'd like to introduce our witnesses. First, 
Dr. Peter Green is Deputy Laboratory Director and Science and 
Technology Officer for the National Renewable Energy 
Laboratory. He's responsible for developing NREL's research 
goals and strengthening its core capabilities, including the 
lab's solar and wind energy technology activities.
    Before his current position, he was Director of DOE's 
Energy Frontier Research Center for solar and thermal energy 
conversion and a scientist at Sandia National Lab researching 
polymers, grass--glass, and electric ceramics.
    Ms. Abby Hopper, Esquire, is President and CEO of the Solar 
Energy Industries Association. Before leading SEIA, she was 
Director for Department of Interior's Bureau of Ocean Energy 
Management, and previous to that, Director of the Maryland 
Energy Administration.
    Mr. Kenny Stein, Esquire, is Director of Policy at the 
Institute for Energy Research. He's previously held positions 
for Senator Ted Cruz, including Legislative Counsel covering 
energy, environment, and ag issues and served as Policy Advisor 
for the Cruz Presidential campaign.
    Finally, we have Mr. Tom Kiernan, who is President and CEO 
of the American Wind Energy Association. Prior to joining AWEA, 
he was the President of the National Parks Conservation 
Association for 15 years and served various roles at the EPA's 
Office of Air and Radiation.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in its entirety in the record of the hearing. And when 
you have all finished speaking, we will begin with questions. 
Each Member will then have 5 minutes to question the panel. We 
will start with Dr. Green.

                  TESTIMONY OF DR. PETER GREEN,

               SCIENCE AND TECHNOLOGY OFFICER AND

                  DEPUTY LABORATORY DIRECTOR,

              NATIONAL RENEWABLE ENERGY LABORATORY

    Dr. Green. Good morning. Chairman Johnson, Chairman Lamb, 
Ranking Member Weber, Ranking Member Lucas, I'd like to thank 
you for this opportunity to discuss the future research 
prospects of wind and solar energy and the opportunities they 
provide for advanced technologies.
    I'm Peter Green as introduced, I'm Deputy Lab Director for 
NREL. Prior to coming to NREL, I spent 9 years on the faculty 
of the University of Texas, another 11 years on the faculty of 
the University of Michigan; prior to that, I was at Sandia 
National Laboratories.
    NREL for the last 4 decades, since its inception, has made 
critical contributions to the science that underpins the 
technology innovation that have led to establishing the now 
viable wind and solar industries.
    Indeed, as Chairman Lamb pointed out, the last few years 
have seen a rapid expansion of both solar and wind capacity, 
power generation. He also correctly points out that these 
industries employ over 350,000 people and together they provide 
about 8.2 percent of total electricity, in the U.S.
    Now, one of the primary reasons has to do with a drop in 
price and cost, and cost is now on parity with conventional 
energy production sources, in some cases, a little better. I 
want to emphasize however, that this is just the beginning. A 
number of scenarios that people have evaluated will project 
that conservatively, we need to increase power from both wind 
and solar by at least order of magnitude over the next decade.
    And cost is going to have to come down to much lower 
levels, in fact one half of where it is at this point; this 
really sets a bar for where we really need to be. We're not 
currently able to do that. And perhaps one thing to point to 
are the solar and energy goals--the R&D goals here are really 
set by the manufacturers, the plant developers, and utilities. 
If we are going to increase capacity more than order of 
magnitude and also decrease prices, there's a lot that needs to 
be done.
    There is a myriad of solar PV technologies which require 
significantly more research, some include the multi-junction 
and tandem cells, which are quite effective in terms of 
efficiency; the perovskites which can be produced, roll-to-roll 
could be a gamechanger, but there is a lot of work that needs 
to be done to increase their stability, a lot more research 
needs to be done.
    Solar power--concentrating solar power is another area 
where in fact, the goal is 5 cents per kilowatt hour and at the 
same time combined with thermal storage, which is cheaper than 
batteries, provides significant opportunities. There's a lot of 
work going on there in China right now but not so much in this 
country.
    I want to now talk about wind power; but with regard to 
wind power, the goal is that we would like to be able to 
produce wind from anywhere within the U.S., onshore, offshore, 
East or West Coast as well as the Great Lakes. We also want to 
do it at half the current cost. Now, there's a challenge! The 
International Energy Agency got together the best researchers 
around to actually put together what the future of wind should 
look like. An interesting quote from the report,``Realizing the 
full potential of wind technology will require a paradigm shift 
in how wind turbines and power plants are designed.''
    Really what's happened here is that these new wind machines 
are going to be full-length, almost 250 meters high; higher 
than the Washington Monument, and there are some challenges. 
One, what I'd like to do is I'd like to take advantage of the 
wind resource which is much more rich at higher levels. 
However, these new huge wind machines are going to have to be 
lighter and they're going to have to be cheaper, and this is a 
major challenge.
    We don't understand the wind resource in enough detail at 
that level; this is also going to require more research. The 
blades are going to be too long so you can't transport them 
along a highway; so they're going to have to be onsite-
manufactured, taking advantage of new manufacturing 
technologies; that's yet another challenge.
    Recycling is another issue. Even more important, the 
current windfarms underperform and so there's an enormous 
amount of work to be done to understand the wind dynamics and 
things to be able to optimize the performance of wind farms.
    So I have two final comments to make, the current grid 
modernization efforts as well as complementary technologies 
like storages are continuing and certainly they're going to be 
able to facilitate large amounts of renewable energy in the 
grid.
    And the final point that I really want to make, actually 
two final points, NREL has spent years going from basic science 
toward implementation for commercial interactions; this has 
been part of our DNA since our inception in 1977. The new 
system, interactive system that DOE has really fostered, where 
we've got interactions between academia, National Labs, and 
industry has worked well.
    The different DOE funding models worked well! They were 
responsible for where we are at this point with wind and solar, 
and I think that this will be quite useful in years to come; we 
cannot reach those goals without further R&D spending. And 
again, let me thank you for this opportunity.
    [The prepared statement of Dr. Green follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Lamb. Thank you very much, Dr. Green.
    Ms. Hopper?

                 TESTIMONY OF ABBY HOPPER, ESQ.,

                PRESIDENT AND CEO, SOLAR ENERGY

                     INDUSTRIES ASSOCIATION

    Ms. Hopper. Great. Good morning. Chairman Lamb, Ranking 
Member Weber, and Ranking Member Lucas, and Members of the 
Subcommittee, thank you so much for having me here today. It's 
an honor to be here. My name is Abby Hopper. I am the CEO and 
President of the Solar Energy Industries Association or SEIA. I 
think everyone here has a great acronym. That's mine, SEIA, and 
we are the national trade association for the American solar 
energy industry. We have 1,000-member companies in every State 
across the Nation, and as you've heard and as we never get 
tired of telling you, we have about 250,000 Americans working 
in our industry. It is a $17-billion-a-year industry.
    There is bipartisan support for the solar industry and with 
policymakers in both parties at both the Federal, the regional, 
the local, the State level, every level of government advancing 
this clean, competitive, job-creating energy source. The modern 
solar industry has benefited tremendously from technology that 
the Department of Energy has helped bring to market. This has 
included solar-plus storage, which has achieved higher asset 
utilization; smart inverters for flexible power control; better 
communications and data analytics; and improved codes and 
standards. And so SEIA supports the Committee's draft bill to 
authorize and fund solar research.
    So allow me to share our industry's vision with you and 
explain why a continued investment by the Federal Government in 
research and development is critical to making that vision a 
reality. You've heard lots of statistics. My particular solar 
one is that solar now currently represents about 2.3 percent of 
U.S. electricity generation today. We have established an 
aggressive goal for ourselves to make solar account for 20 
percent of all U.S. electricity generation by 2030, thereby 
making the 2020s the solar-plus decade, and we'll talk a little 
bit about why the plus is there.
    To get there we're going to need to install an average of 
39 gigawatts each year through the 2020s, including 77 
gigawatts in 2030 alone. We'll need an average annual growth 
rate of 18 percent and cost reductions, as the good doctor 
said, across all market segments by nearly 50 percent. So if we 
achieve this growth together, we'll build more systems annually 
than we have built to date.
    And there will be 600,000 solar jobs by--in 2030, and 
that's more workers than every single U.S. company except for 
Walmart, more than the utility industry, and more than the 
mining, oil, and gas extraction industries combined. So that 
level of employment growth will mean not just a larger but a 
more diverse workforce, which will benefit from Federal job 
training support. We must ensure that people of all 
backgrounds, genders, and abilities have access to both solar 
energy jobs and the solar energy itself. If we achieve our 20 
percent goal by 2030, our industry will add more than $345 
billion to the U.S. economy.
    So while there are many notable areas for further research, 
to reach this 20 percent solar by 2030, I'd like to highlight a 
couple of areas that we think are critically important. First, 
soft costs, those non-hardware costs of permitting, inspection, 
interconnection, customer acquisition, and labor are 
increasingly representing a larger share of the cost of solar 
energy system. More efficient permitting can save consumers 
about $1 per watt or roughly 40 percent on the cost of a 
residential energy system. This includes direct costs such as 
fees and indirect costs such as time spent on applications and 
inspections. These issues will impact both established and 
emerging markets alike.
    Second, using grid integration should continue to be a top 
priority. The grid must be able to handle this intermittent and 
variable generation, and investing in infrastructure upgrades 
is necessary to hit these targets. We also have to invest in 
cybersecurity technologies for photovoltaic and other grid 
interactive systems today that will ensure that as more of 
these come online that we can recover faster and our systems 
are more secure.
    Third, we are supportive of efforts to advance U.S. solar 
manufacturing. The United States has the best National Labs in 
the world, and I'm not just saying that because Dr. Green is 
sitting next to me. I do believe that. Leveraging these 
resources is essential to improving the competitiveness of U.S. 
solar manufacturers and the long-term health of the U.S. solar 
industry.
    And last and importantly, we must fund late-stage 
technologies and field demonstrations. As just one example, 
energy storage will be a vital part of achieving 20 percent 
solar by 2030, but few utilities will incorporate large volumes 
of storage unless they understand how those systems will 
interact with each other.
    So thank you for your time and your continued support of 
the solar industry. The vision I've outlined is bold but 
certainly achievable. We're working to overcome the challenges 
we must face to make the 2020s the solar-plus decade, but we 
cannot do it alone. Research and collaboration with the Federal 
Government will be key to our success, and that means strong 
authorization language and funding to make sure it happens.
    I look forward to answering the questions you may have.
    [The prepared statement of Ms. Hopper follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Lamb. Thank you, Ms. Hopper.
    Mr. Stein?

                 TESTIMONY OF KENNY STEIN, ESQ.,

                      DIRECTOR OF POLICY,

                 INSTITUTE FOR ENERGY RESEARCH

    Mr. Stein. Yes. Mr. Chairman, thank you for the opportunity 
to participate in the Subcommittee hearing on the Federal 
Government's involvement in solar and wind energy research. My 
name is Kenny Stein. I'm the Policy Director for the Institute 
for Energy Research. We're a free-market organization that 
conducts research and analysis on the functions, operations, 
and government regulation of global energy markets.
    The purpose of Federal Government funding for research in 
any industry should be limited and clearly defined. The 
justification for such funding is that research in emerging or 
novel technologies would not otherwise be provided by private 
interests, whether companies or individuals. This is a 
reasonable role for the government to play. However, this can't 
be a license to spend money. Federal support should not go to 
projects that private interests already have a clear incentive 
to develop.
    Far too often, it's the case that the Federal Government 
provides grant money to companies to subsidize activities that 
they would already be undertaking. The content of the 
discussion drafts for this hearing slips into precisely this 
error. Wind and solar generation are widespread and well-
understood. Utilities and independent generators across the 
country have announced large targets for investments in 
increasing wind and solar installations, some of which were 
mentioned by the previous witness. This action is being taken 
in response to regulatory and consumer demand.
    This investment record doesn't suggest a shortage of 
private-sector funding or commitment to wind and solar 
generation. The companies making these investments already have 
market and regulatory incentives to, quote, ``increase 
efficiency, reliability, security, and capacity of wind and 
solar generation,'' which is just quoting the first mission 
bullet of the discussion draft.
    Both the wind and solar industries are mature industries 
with plenty of private-sector interests and investment in 
innovation and deployment. We're not talking about nascent or 
speculative industry. The need for Federal funding at all is 
pretty debatable to put it mildly. If Federal money is still 
required at this point, the question must be asked, is there 
ever going to be a point where enough is enough?
    Given the already high rate of wind and solar investment, 
it's hard to see how more Federal intervention could possibly 
be beneficial. In fact, a heavier Federal hand could end up 
limiting growth and innovation. The Federal Government is slow 
and process-constrained as it is, cannot adjust rapidly to 
technological developments. As new operating processes or 
products enter the market, it can be left funding older, 
obsolete initiatives. Indeed, Federal interference of this sort 
envisioned by these discussion drafts can actually lead an 
industry to spend its time trying to meet Federal benchmarks 
for grants rather than asking the question whether an 
alternative might make more sense, which could ironically 
actually limit innovation.
    The best example of an appropriate role for the Federal 
research funding can be found in the earliest days of solar 
energy generation. Early solar panels with poor efficiency 
found little uptake for terrestrial resource uses. However, the 
burgeoning space program identified solar as a potential energy 
source for spacecraft. Government funding from NASA then helped 
develop solar technology to the point where it's usable in 
space applications, and then, years later, solar companies 
built on that foundation to develop the generation technologies 
that are now being applied to terrestrial electricity 
generation.
    The lesson here is that the Federal Government didn't 
choose a solar technology and then try to commercialize it or 
reduce its costs. The basic technology was developed for a 
specific national purpose with private innovation later funding 
applications for the private market. This is how the process 
should work. The Federal Government does not have the 
characteristics or competency to be a startup accelerator, but 
it can effectively provide a base level of data and information 
for private innovators to build on.
    Thus, a better path forward for Federal research spending 
would be focusing on the original mission that I suggested 
above, funding emerging or novel technologies and applications 
not otherwise supported by private interests. One example of 
this kind of focus is the National Renewable Energy Laboratory 
research into the use of perovskite materials mentioned earlier 
in solar cells. This is the kind of basic research the Federal 
Government should be funding, leaving private entities to 
determine the most useful applications of these discoveries. 
There is a legitimate Federal role in supporting such basic 
research that has the potential to improve the overall well-
being of the American people or as required to meet a specific 
Federal need.
    Note that this is not just a branding exercise with 
anything called early stage or basic coming eligible for 
funding. Federal research spending should focus on truly novel 
technologies or applications. Further, this should not just be 
a license to spend more money. Clearly, focusing Federal 
priorities means discarding some spending areas sometimes to 
hone in on research at, for example, the National Labs or 
universities, the case where less can actually be more 
effective.
    The premise underlying these discussion drafts then in my 
opinion is unsound. Mature industries like the wind and solar 
generation sectors with extensive and dynamic economic activity 
are not in need of Federal interference, however well-
intentioned. While basic research is a reasonable Federal role, 
responsibility for later phases of the business cycle such as 
commercialization or deployment is best left in the hands of 
the industry itself. Thank you.
    [The prepared statement of Mr. Stein follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Lamb. Thank you, Mr. Stein. Mr. Kiernan?

                    TESTIMONY OF TOM KIERNAN,

       PRESIDENT AND CEO, AMERICAN WIND ENERGY ASSOCIATION

    Mr. Kiernan. Chairman Lamb, Ranking Member Weber, Members 
of the Committee, Ranking Member Lucas, thank you very much for 
the opportunity to testify. Again, Tom Kiernan, CEO of the 
American Wind Energy Association representing approximately 
1,000-member companies, everything from the turbine 
manufacturers, the supply chain, the developers of the 
windfarms, the owner-operators, the researchers, consultants, 
et cetera.
    Wind energy is an American success story. We are currently 
providing, as was mentioned, 114,000 jobs, and we are either 
the number-one or the number-two fastest-growing profession, 
the wind turbine technician, the fastest-growing profession in 
the country. I'll point out my colleague Abby Hopper often 
mentions the solar technician is either the first or second. We 
kind of go back and forth, an important point to note.
    Wind energy is also playing a key role in lowering the cost 
of electricity to consumers. Per third-party analysts, wind 
energy is the cheapest source of unsubsidized of new 
electricity on the grid, and in many parts of the country, 
actually we're cheaper than the marginal cost of existing power 
grids.
    We're also--speaking of rural America, we are also 
providing $1 billion annually to rural America whether it's 
through State and local taxes or land lease payments to 
farmers.
    Another observation I think it was mentioned, we are 
operating in all 50 States, 500 manufacturing facilities, or 
having windfarms in those 500 different manufacturing 
facilities, and we are in 69 percent of all congressional 
districts, either manufacturing facility or windfarm.
    And last, we are reliably on the grid. Six States currently 
produce at least 20 percent of all their electricity from wind 
energy, and there are periods of time in some States where 
we're at 50, 60, or 65 percent of the electricity in that State 
for a period of time is reliably provided by wind energy.
    And then there's the offshore wind energy industry that is 
blossoming right now with another 8 to 10 gigawatts of wind 
energy offshore in the next decade.
    I'd like to now talk about the really important role of 
DOE's Wind Energy Technology Office in this American success 
story. They have been key in the R&D side of it, the innovation 
and the collaboration, especially on onshore, examples being 
they have helped us advance wind turbine technology. They have 
helped the industry overcome market barriers to increase the 
output of individual turbines and windfarms, to improve the 
reliability that I mentioned earlier, and to help reduce the 
cost, all for the onshore side.
    For offshore wind energy as well they've been helping us 
drive down the cost of offshore wind, addressing installation 
challenges, helping to mitigate the environmental challenges, 
helping us with grid interconnection and integration, and 
working supply chain.
    Now, I'd like to also importantly talk about the role of 
DOE in early-, mid-stage, and late-stage research because of 
the unique capabilities that DOE has and the unique role that 
DOE can play. And let me give three different examples. First, 
DOE has data sets. They've got modeling capabilities, and they 
have supercomputing capabilities that industry simply does not 
have. With those types of assets, they have been quite helpful 
in having us optimize turbine designs.
    They've been quite helpful in coming up with algorithms for 
laying out windfarms to optimize the amount of energy you get 
out of a single windfarm, and they've also been quite helpful 
using the supercomputing capabilities to come up with 
operational algorithms, again, to optimize the output of a 
windfarm. These are activities the industry simply cannot do 
because we simply do not have those supercomputers, the 
modeling capabilities, and the data sets that DOE uniquely does 
have.
    Another role that they can play because of their unique 
capabilities is as a convener of collaborative efforts. So one 
example is they have been quite helpful with wildlife detection 
and deterrence technologies that, because of their colleagues 
over in the Fish and Wildlife Service care deeply about the 
impact on wildlife, DOE can play an important convener role 
that has credibility back with their colleagues at the Fish and 
Wildlife Service. They've been helpful there.
    They've been helpful convening efforts for hardware and 
software capabilities to mitigate the impact on radar that the 
Department of Defense cares deeply about or that the Weather 
Service cares deeply about. So here again, DOE has played a 
convener and a collaborative role that uniquely DOE can play.
    And last, they've been very effective in third-party 
research that State and local regulators have appreciated. 
Last, they've also worked well with their colleagues on 
transmission and grid interconnection.
    So, in closing, we fully support the role of DOE and 
appreciate the opportunity to testify today and look forward to 
answering your questions.
    [The prepared statement of Mr. Kiernan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Lamb. Thank you, sir. We will now begin with 
questions, and I recognize myself for 5 minutes.
    Mr. Kiernan, I was wondering if you could expound a little 
bit on the supercomputing and algorithmic side of what DOE 
brings to the table. Do you see that as leading to an 
achievable gain or accomplishment within the next 5 or 10 
years? And I ask that because in my own part of the country we 
have DOE's main fossil lab there, and they're doing a lot on 
supercomputing and trying to optimize materials, liquid flows 
when it comes to hydraulic fracturing, natural gas, and that 
kind of thing. And I would imagine it's the same out at NREL 
and other places. And it just sort of seems like we're in this 
era where a big jump in computing or an algorithmic advance can 
be applied to existing technology to achieve a lot of 
efficiency. Is that what you're hoping for, or is that where 
you're seeing the potential for that?
    Mr. Kiernan. Yes, we have seen it and are looking for more 
assistance. And I'm sure Dr. Green can also mention it, but a 
couple of examples that you've got the individual turbine, but 
because of DOE's modeling and supercomputing capabilities, 
understanding the airflow through one turbine and its impact on 
subsequent turbines in a windfarm is extraordinarily complex. 
And because of their capability, they've been able to say, hey, 
actually, there are times when you want to let some of the wind 
slip past that first turbine to maximize output from the 
second- and third-level turbines and that in total the 
windfarm, if you think about it as an entire system, is able to 
increase the output at no additional cost. It's just more 
intelligently managing individual wind turbines so that the 
total farm does better. Their Atmosphere to Electrons program 
and other similar programs at DOE have helped us optimize that 
management. And yes, we're looking for additional guidance and 
algorithms to do more so in the future.
    Chairman Lamb. And do you believe that some of those 
advances were actually due to the hardware of the supercomputer 
that we have at DOE that is not commercially available?
    Mr. Kiernan. That's my understanding, that their capability 
and their modeling has played a key role in that advancement 
for the industry.
    Chairman Lamb. Thank you. Ms. Hopper, did you have anything 
to add there as it applies to solar?
    Ms. Hopper. I would--so I was shaking my head on the 
placement of wind turbines because, as you mentioned, I am very 
familiar with offshore wind as well, so I appreciate the work 
that's happened on the wind side. On the solar side, I think 
they have similar kind of advances in terms of using that--the 
ability of DOE to--you know, for us it's sort of how you lay 
out systems and sort of what the efficiency of those systems 
are. All land is not the same, all roofs are not the same, and 
so how do we make it the most efficient? And the National Labs 
have a unique capability that does not exist in the private 
sector to do that analysis.
    Chairman Lamb. OK. Dr. Green, did you see that in your time 
at Sandia or did you ever encounter some of those 
supercomputing resources being useful to your work?
    Dr. Green. Yes, absolutely. The National Labs have enormous 
high-performance computing capabilities, Sandia, Oak Ridge, and 
certainly NREL in the energy space; everything that's said is 
actually quite, quite accurate. We do rely on these kinds of 
models for guidance.
    Chairman Lamb. OK. Yes, I mean, that to me is--it's an 
important point because, you know, again, we are--we're doing 
this in the face of very intense international competition, and 
we have a ticking clock when it comes to the environment. At 
least we believe that we only have a certain period of time to 
solve this problem of climate change. So I think putting these 
resources from the government and private sector together 
rather than sort of pitting them against each other might help 
us within that timeframe.
    Mr. Kiernan, I noticed in your written testimony you talked 
about the wind energy industry hiring veterans at a much higher 
rate than the national average. Are you aware of specific 
programs that have helped produce that result or are they just 
more naturally drawn to the industry? What have you seen?
    Mr. Kiernan. It's a combination of factors. In some cases 
it's an individual company that, yes, has an effort to outreach 
to veteran communities through veteran organizations. I think 
there's also an inherent connection. The men and women that are 
vets that have the skills to be outside, problem-solving, 
addressing some key challenges on their own or in teams are 
often attracted, too and extraordinary employees whether it's 
up-tower in a turbine addressing some of the electrical or 
engineering issues. So it's a great fit. They also--frankly, 
the transition from the mission of serving the country to the 
mission of serving the country through wind energy is an 
obvious connection, so it's something that we are encouraging 
and exploring on how to build some further initiatives 
industrywide.
    Chairman Lamb. Thank you for those efforts. I'm out of 
time, and I recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you, sir.
    Dr. Green, I really appreciate your testimony on innovative 
research taking place at NREL, particularly in the areas that 
could be gamechangers for renewable energy technologies like 
advanced computing that the Chairman mentioned and materials 
development. But when you look at the budget and compare EERE 
and NREL, our lead renewable energy lab received $315 million 
in FY 2019 or about only 13 percent of EERE's budget. In 
contrast, DOE's nuclear energy lab, Idaho National Lab, 
received $924 million or 69 percent of the Office of Nuclear 
Energy's total.
    If your lab received a larger percentage of EERE's total 
budget which, as we've noted, is by far the largest of the 
applied energy programs at DOE, what other types of innovative 
research could you undertake? Are there currently any areas of 
fundamental or early stage? You've been chatting with the 
Chairman about that. Elaborate some more on that for us. What 
are some things you could do--I'll give you more time on that--
that you can't do due to funding restraints right now?
    Dr. Green. I would say currently, for the examples that I 
gave, such as solar, more forward-looking research, as well as 
investigating more advanced technologies to understand how to 
further improve the efficiencies and the performances. That's 
one area. The science of reliability, when you have these 
modules out there for years to understand and predict how 
they're going to perform; that's going to be increasingly 
important.
    Mr. Weber. Are you able to model the wind blade----
    Dr. Green. Yes, we absolutely can do that. We're able to 
model and visualize these kinds of calculations provide 
guidance for experimentalists to work on.
    With regard to wind, those new challenges are daunting 
because, as you pointed out, you're looking at towers, an 
entire spine going 250 meters. We need to better understand the 
atmosphere and its interactions with the atmosphere at that 
level. This problem requires a major, highly collaborative, 
effort that we'll have to solve.
    Trying to optimize a windfarm performance is actually a 
grand challenge, as it turns out, and it's a grand computing 
challenge, as well, and we are going to have to begin to 
validate what we predict.
    Mr. Weber. Are you able to model that--of course, Texas, on 
the west side of Texas, the western plains we call it has a lot 
of windfarms out there----
    Dr. Green. Yes, absolutely.
    Mr. Weber [continuing]. Talking about off the coast as 
well. Are you able to model the difference between onshore 
turbines and offshore turbines?
    Dr. Green. So, yes we have very good ideas. Currently, most 
of the work is being done on onshore turbines; this is a huge 
collaborative effort between us, Sandia, Oak Ridge, and all the 
National Labs, and academia. For the offshore wind turbines, 
there's work beginning in that area. They pose very different 
and more difficult challenges; they're all, on-average, larger, 
they tend to be larger. They tend to be floating, and 
untethered by a range of things, and they experience much more 
extreme forms of weather and things like that.
    There's a bit more work to be done here, a lot more work to 
be done.
    Mr. Weber. Well, let me do a follow up to Mr. Stein over 
here.
    Mr. Stein, in your opinion, wouldn't it be a better 
investment of tax dollars, I appreciate you taking a look at 
the draft legislation, but wouldn't it be better in your 
opinion for investment of tax dollars to focus on the kind of 
fundamental research we see at the National Labs instead of 
individual grants to companies?
    Mr. Stein. Sure. I think that's the fundamental argument I 
was trying to make, and some of the things that were mentioned 
in Dr. Green's testimony sound like things like how to 
manufacture a wind blade that can be moved, you know, and 
pieces that can be moved on a road. That's a manufacturing 
challenge that's really the responsibility of the industry 
rather than the government to come up with the technical 
corrections to be able to manufacture and install some of those 
things.
    So I think it's--certainly some of the things that Dr. 
Green is talking about make perfect sense to be part of NREL's 
portfolio, but I think some of the----
    Mr. Weber. But be careful about where it goes----
    Mr. Stein. Right.
    Mr. Weber [continuing]. Because in the end you mentioned it 
could wind up actually limiting what private companies are 
willing and ready to do?
    Mr. Stein. Exactly. If these companies end up trying to 
meet benchmarks for materials or wind turbine height or 
whatever that are set by the Federal Government, they focus on 
those benchmarks rather than thinking, you know, is there a 
different way to do this, is there a different location for 
this, those sorts of things. That sort of innovation----
    Mr. Weber. Right.
    Mr. Stein [continuing]. That----
    Mr. Weber. Well, I appreciate that. And, Ms. Hopper, I want 
to come over to you. As a former air-conditioning contractor, I 
paid very close attention to the cost of energy and what air-
conditioners drew or the more efficient units didn't draw. You 
mentioned in your testimony that part of the problem was in the 
permitting and all of the things that went with getting lined 
up. I think you said it can save as much as $1 per watt in soft 
costs. That's fairly high when you figure a lightbulb is 100 
watts, OK? So I think you might want to go back and look at 
that. It's maybe not as high as $1 a watt. A single lightbulb, 
an incandescent light bulb can be more--40 watts, 75 watts. 
Maybe $1 a kilowatt?
    Ms. Hopper. I will certainly go back and look at that, 
but----
    Mr. Weber. Yes.
    Ms. Hopper [continuing]. I'm fairly confident that that's 
the right number. But we'll go back and look at it, sir.
    Mr. Weber. OK. Just curious. I appreciate you. Mr. 
Chairman, I yield back.
    Chairman Lamb. I recognize Mr. Casten for 5 minutes.
    Mr. Casten. Thank you, Chairman. Thank you to the panel, 
and I can assure you that I have sometimes paid $1 a watt in 
development costs. Those numbers are--they are shocking and 
they are high. It's $1,000 a kilowatt. So, to the panel, I 
would vouch on that.
    I want to talk a little bit about some cross-cutting energy 
technologies and specifically energy storage. The--growing the 
capacity for storage on the grid is increasingly critical with 
the rise of intermittent resources and non-dispatchable 
resources and is going to be a critical part of the way that we 
make sure that the lights stay on in the absence of deploying 
really inefficient fossil generation on the margin that's bad 
for the environment and bad for the economy.
    Dr. Green, in your testimony you discussed the importance 
of developing diverse technology solutions for meeting our 
energy storage needs. Can you elaborate for us on why having a 
wide array of different energy storage technologies is 
important?
    Dr. Green. Yes, most certainly. So one of the 
characteristics of wind and solar is they're variable, for 
example, you don't have the sun at night. So one of the things 
we like to be able to do is to predict when they will generate 
an enormous amount of energy. We would like to be able to store 
it and use it at a later time. That's one of the primary 
reasons.
    There are in fact a number of methods for storage; of 
course lithium-ion being the most common one. Certainly you've 
got pumped hydro, compressed air. And there are a range of 
other battery technologies out there that people are 
researching.
    Mr. Casten. Thank you. Ms. Hopper and Mr. Kiernan, in both 
of your testimonies you indicated the need for R&D in the 
later-stage technologies and field demonstrations, including in 
grid storage. Can you talk a little bit about what support is--
what specific support is needed for later-stage demonstration 
projects?
    Ms. Hopper. Sure, I will share. I would echo Dr. Green's 
sentiment that rapid deployment and broad deployment of storage 
is critical to reaching high penetration levels for renewables, 
as you know, Congressman. And so I think the most important 
thing for the demonstration project is to demonstrate to 
utilities, who are actually the ones who have to operate the 
grid, that this storage capacity can--is operable. It can 
interact, and it certainly can interact at large scale and that 
the--these intermittent resources, wind and solar being the two 
most important ones, can function and provide reliable power. 
So I think the Federal Government has a unique role to play in 
proving that out.
    One of the things we haven't really--we've sort of assumed 
but haven't said explicitly is that NREL and all of our 
National Labs have a--they are respected, they are--they have a 
unique role in verifying, sort of, systems and verifying 
technologies that the private sector doesn't have. And so as we 
look to utilities to adopt these technologies, if they have 
been verified by something--by an institution like NREL, 
they're going to have much broader adoption.
    Mr. Kiernan?
    Mr. Kiernan. Two quick things to add. First, in looking at 
storage, I agree it's important on the grid and that we need to 
look at multiple types of storage, not just batteries but 
pumped hydro, other technologies that allow you to store energy 
for long periods of time is very helpful for the grid, one 
point.
    Second is I would encourage the Committee also to think 
about transmission. Transmission is critically important to 
enhancing the grid and to enabling more wind and solar from 
remote places where it's generated to have the transmission 
grid to move it to load. That's not storage, but you can think 
of it as storage in that you're bringing new energy from one 
distant place to load where it's needed when it's needed. So, 
as you're looking at an infrastructure bill, potential bill, 
please look seriously at transmission and enhancing the grid 
through that.
    Mr. Casten. The follow up for both of you, you know, I 
think all of us who have spent time in the energy development 
space are aware of this valley of death where the risk is still 
a little bit too high for the private sector, but, you know, it 
gets hard to push back on people who say government shouldn't 
be there anymore. Can you speak specifically to what you would 
like to see the National Labs doing to help de-risk those 
storage technologies that are close but not quite to the point 
where the private sector is taking them up yet?
    Ms. Hopper. Thank you for that question. Yes, I think 
across sectors people are very familiar with the valley of 
death. And as I think about solar companies and storage 
companies, there's about--you know, we've talked--we have about 
10,000 solar companies specifically. About 3 percent of them 
have more than 500 employees. The vast majority of those are 
small businesses. So as they look at sort of their resources to 
commercialize some of these technologies, they just aren't 
there. So this--I think it's a false assumption to say that the 
private sector will simply take over.
    So what do I think the National Labs need to do? They need 
to move through that stage of development. They've done the 
basic research on sort of what the options are, and then do 
more research to work toward commercialization. And I think 
they are uniquely positioned to do that. It's not a place the 
private sector is going to take over. And I do believe it's for 
the public good as we think about how we are transforming our 
electric grid and what we want that energy portfolio to look 
like, it is because it's going to benefit American--the 
American public, and so there's certainly a public interest in 
making that investment.
    Mr. Kiernan. The only quick thing I would add, if I may, we 
are very, very early on in figuring out hybrid projects, 
projects that have wind and solar and storage as one that 
allows the developer to provide quite stable electricity to 
customers. There was a reason--one of the few examples, but 
Portland's gas and electric provided by NextEra, and there's a 
whole lot of additional research that can be done, needs to be 
done to figure out how you create these hybrid wind-solar 
storage combined projects to help the grid.
    Mr. Casten. Thank you, and I yield back my time.
    Chairman Lamb. I recognize Mr. Biggs for 5 minutes.
    Mr. Biggs. Thank you, Mr. Chairman. I appreciate the 
Chairman and the Ranking Member for holding this hearing today. 
I thank each of the witnesses for being here.
    As I think some of you, particularly Ms. Hopper, noted, 
Arizona with regard to solar is highly developed I guess I 
would say compared to many of our friends, other States around 
the country. And people just naturally assume because Arizona 
gets 361 days of sunshine a year, we're going to be the leader. 
But we're not number one yet, but we certainly are making 
advances.
    But I wanted to talk a little bit; I've enjoyed listening 
to each of you testify today. Dr. Green said at one point that 
windfarms are underperforming. I don't disagree, and my 
research kind of indicates that as well.
    And I appreciate, Ms. Hopper, talking about regulatory 
reform necessary, and I'll roll that back into what I'm going 
to say in just a second, and then Mr. Kiernan talked about 
transmission and all of you have talked about storage, Mr. 
Stein, others talked about storage. That is really critical if 
this is going to succeed in the long term.
    But I want to talk about something that's important to my 
home State with relationship to both solar and wind, and that 
is the notion of the necessity for critical minerals that go 
into the creation of solar panels or infrastructure in 
facilities for either types of solar windfarms. So it is 
important that we streamline mineral development in the United 
States. This is to sustain production and the infrastructure 
necessary to deliver energy, whether it's these green energy or 
traditional energy. Solar industries, for instance, are 
dependent on minerals, including aluminum, cadmium, gallium, 
indium, iron, lead, nickel, silica, silver, tellurium, tin, 
zinc, and copper.
    And I bring up mining because over the last 20 years the 
U.S. has doubled its import reliance to the point that we are 
now 100 percent dependent on foreign countries like China and 
Russia for 20 metals and minerals, many of which are essential 
for energy infrastructure, national security, and defense 
application. The President and his Administration have 
published executive directives to begin important work on 
identifying immediate domestic sources for critical minerals, 
including the need for geophysical mapping of the United States 
to support management of private-sector mineral exploration and 
to provide data for land-use planning.
    Still, a lot of our friends on the other side of the aisle 
are pushing anti-mining legislation, including the friend of 
mine from Arizona, who is the Chairman of the National 
Resources Committee. That will crush the hard rock mining 
industry, impose punitive high royalties, a new dirt tax, and 
add more red tape to the permitting process.
    These minerals are critical to the future of what you do 
and what you want to see happen, and just like you would like 
to see regulatory streamlining done in your particular fields, 
it seems to me that we should be looking at that with regard to 
mining. Right now, we have a copper mine that has been waiting 
to go online for 15 years and has spent $2 billion and has not 
been able to turn a spade of dirt yet, $2 billion. So this is 
critical.
    And also we need to recognize that there are potential 
environmental costs as well. Clearing land for solar energy 
infrastructure may have long-term effects on habitat for native 
plants and animals. Even in the pristine, secluded deserts of 
Arizona where I'm seeing solar farms go in, there was a 
necessity for water as well, which is, in the desert area, can 
be very tough to get to. And in Arizona only 4.6 percent of our 
source of energy comes from solar energy.
    But it's home to nuclear. Three nuclear power reactors have 
produced almost 30 percent of Arizona's electricity while 
emitting no greenhouse gases. Additionally, the Palo Verde 
Nuclear Generating Station is America's largest and employs 
more than 2,500 workers.
    The private sector, which is better equipped than the 
Federal Government to research and develop renewable energy 
technologies generally, is already leading the way in advancing 
solar and wind energy technologies. For instance, APS announced 
a major clean-energy initiative, including new battery storage, 
which I think you all talked about, and I think that's critical 
for the success of green energy in the future. And they intend 
to build additional new solar plants with storage that will 
deliver affordable energy to Arizonans. This initiative will 
add 850 megawatts of battery storage, more than 100 megawatts 
of new solar generation. And Secretary Perry called this a 
``great example of an all-of-the-above approach to energy 
policy.''
    In short, I think nuclear energy is also a reliable source 
of electricity in the United States. I appreciate each one of 
you and your work and your effort, and with that, Mr. Chairman, 
I yield back.
    Chairman Lamb. Thank you, sir. Ms. Horn recognized for 5 
minutes.
    Ms. Horn. Thank you, Mr. Chairman. And thank you all for 
being here and for your testimony today.
    I live in a district--I'm from Oklahoma. I live in a 
district with a strong presence of hydrocarbon, natural gas, 
wind, and solar, so we have a lot of energy in Oklahoma, as you 
might imagine. And, Mr. Kiernan, in your written testimony you 
said that DOE modeling and analysis has been important in 
demonstrating how the increasing diversification of generating 
resources--natural gas, wind, solar, storage, all of the 
above--can be reliably integrated into the grid. Can you 
elaborate a little bit more on the importance of 
diversification of energy sources and what it looks like in 
terms of reliability and stabilization as we move forward?
    Mr. Kiernan. Did you want that for Mr. Green or for me, Mr. 
Kiernan?
    Ms. Horn. Oh, Mr. Green, I'm sorry. I--wrong person. You 
were nodding, and I--Mr. Green, that's for you.
    Dr. Green. I think the diversification of the energy 
generation sources is actually very important, and it's 
happening right now, particularly as we go through the energy 
transition; we must combine renewables with the conventional 
sources. There are lots of unknown questions. And one of the 
major activities in which NREL is currently engaged is a 
proposal for what we call the Flatirons Campus, where were 
going to have megawatt-type solar arrays, wind, natural gas, a 
range of sources. Here we're going to begin to understand 
essentially how we can look at the performance of hybrid 
systems, for example, combined storage and energy generation, 
and how would these perform in relation to generation from 
fossil or even from natural gas.
    This new campus has a series of assets, as I mentioned, 
that includes solar and wind. We have high-speed connections to 
Idaho National Lab, with nuclear energy. And so this is going 
to be a unique facility which really will enable us to 
understand how the new grid of the future is going to operate, 
at some level.
    Ms. Horn. Thank you. And many of our energy companies now 
are finding innovative ways to reduce water usage, increase 
efficiency, and use technology to help get us to cleaner 
energy, reducing emissions. But we know that these transitions 
from our current systems to what comes next from fossil fuels 
to natural gas to the next generation is costly, and it takes 
time.
    And we've heard about, you know, ambitious timelines, 
which, quite frankly, I'm a little bit concerned about given 
the cost and the--where the technology is. So I think I want to 
be--my question is how do we get--be realistic about this 
tradeoff, what it's going to take to encourage this transition 
to get there sustainably and in a way that doesn't hurt jobs in 
the process but that sustains us--hurt jobs raise cost to 
consumers--in a sustainable way? And I'll leave that to--if you 
want to take it or if anybody else, whoever wants to take that 
one.
    Dr. Green. I'll give one answer and then the others can 
join me. What's happening is that we're progressing in a 
natural way, we can define goals for the next few years in such 
a way that are achievable long-term, and are quite sustainable, 
and that's really what's happening right now.
    Ms. Hopper. Sure. So thank you for that question. I agree 
that ensuring that consumers have access to low-cost, reliable, 
affordable energy is critically important, and I think the only 
way that this transition will happen is if the sectors that we 
represent, wind and solar, can offer that. And I think what we 
have talked about is that over the last decade those--the cost 
of solar specifically--and Tom can talk about wind--have fallen 
dramatically so that we are the lowest-cost option in many 
cases. And we talked about storage to provide that 24/7 
reliability, and so I think that transition can happen and 
certainly will be enhanced by continued investment in R&D.
    Mr. Kiernan. The only thing I would add, we support having 
multiple sources of generation on the grid. It is that 
diversity and the diversity of attributes and capabilities of 
wind versus solar versus gas versus--that enable a very stable 
grid, pulling those together. And what I know wind is looking 
for going forward is the ability--and we're talking to FERC 
(Federal Energy Regulatory Commission) and the RTOs (regional 
transmission organizations) about this--the ability to compete 
in providing both the electrons but also the reliability 
services, voltage support, frequency support that actually wind 
is uniquely capable of providing. We want a market out there so 
that we can compete in providing those services and, over time, 
different sources can take on greater amounts of work on the 
grid.
    Ms. Horn. Thank you. I--my time is expired. I yield back.
    Chairman Lamb. Thank you. I recognize Mr. Babin for 5 
minutes.
    Mr. Babin. Thank you, Mr. Chairman. I appreciate it.
    Mr. Stein, I love the example that you use of how 
government funding for NASA's solar space application led to 
the solar technologies that are now being applied to 
electricity generation. As the Ranking Member of the Space 
Subcommittee, I think that NASA is one of our most valuable 
research entities, so I want to thank you for recognizing that.
    But I think you're right when you say that we should only 
be funding research to create the foundation of new 
technologies, not using tax dollars for the whole lifecycle to 
commercialization. Is there a different area of solar or wind, 
something revolutionary or market-changing that would be a 
better recipient of our limited Federal moneys for research?
    Mr. Stein. Well, one example--I mentioned it briefly, and 
Dr. Green also I think mentioned it is research into perovskite 
materials in solar cells. These are different--these are new 
materials that aren't currently used in solar cells, and they 
have shown a lot of promise for being very efficient, using--
you know, using less resources per watt developed, so----
    Mr. Babin. Yes.
    Mr. Stein [continuing]. I think that's--I think that's a 
perfect example of--and that's something that NREL is already 
doing and--but my point also is that once you've got that 
foundation, that discovery, the actual application, finding 
where it works best, what sort of applications, that's really--
should be the private sector role rather than NREL.
    Mr. Babin. I got you. And another thing I thought was 
intriguing when you said, and I agree with you, that Federal 
support should not go to projects that private interests have 
already got a clear incentive to develop. Can you give an 
example of a time that EERE or another program has used Federal 
funds to develop something that very easily could have been 
done by the private sector with no cost to the American 
taxpayer I might add? Supporters of the Green New Deal want us 
to completely cut the power on our current energy grid and 
transition to 100-percent renewables over the next several 
years, and I see that being detrimental to our economy. And can 
you explain how a more targeted plan to invest Federal money on 
early-stage clean energy research followed by private sector 
development and deployment to better maintain our economic 
growth and lessen the burden of our working class? I know that 
was two questions that I----
    Mr. Stein. Yes.
    Mr. Babin [continuing]. That I asked, the first one of 
course the primary answer I wish you would give first.
    Mr. Stein. Sure.
    Mr. Babin. OK.
    Mr. Stein. Well, the famous example is--goes back to the 
stimulus and some of the money that was wasted on that. 
Obviously, Solyndra is the famous example----
    Mr. Babin. Right.
    Mr. Stein [continuing]. Where you had a private company 
that was--already had a manufacturing technique that they were 
trying to develop, and the Federal Government basically wrote 
them a blank check. The problem was is that they weren't really 
ready for primetime, and that's part of why they were 
struggling to get private funding in the private market.
    So I think that's an example of when you look at the--the 
SEIA, she earlier mentioned that it's a lot of these smaller 
businesses that's the solar industry, but the large utilities 
are also making these investments. There's other parts of the 
private sector there making investments into rolling out--
they've made a lot of commitments for certain percentages to 
come from renewables in the future, that sort of thing. And 
those are private-sector commitments, and some of those are 
driven by State-level governments. But the point being is that 
that's a private groundswell of both consumer demand and 
regulatory demand.
    Mr. Babin. Right.
    Mr. Stein. It's not the Federal Government setting those 
benchmarks and trying to force the private sector to meet them.
    Mr. Babin. OK. Thank you very much, and I yield back, Mr. 
Chairman.
    Chairman Lamb. Thank you. Dr. Foster for 5 minutes.
    Mr. Foster. Thank you, Mr. Chairman. Thank you to our 
witnesses.
    Previous questions have emphasized the crucial nature of 
energy storage to high penetration of wind. And this is 
something I've agreed with for a long time. And it's one of the 
reasons I plan to reintroduce the BEST Act, the Better Energy 
Storage Technology Act, that expands grid storage R&D, as well 
as demonstration projects. And it also directs DOE to establish 
cost targets for energy storage, which I think are going to be 
crucial for just benchmarking progress.
    And so my question is, what do you see is the balance 
between R&D needed for energy storage and demonstration 
projects that would just have the utilities gain confidence? 
Dr. Green?
    Dr. Green. Yes, I agree there is significant research that 
needs to be done; just consider lithium-ion batteries for 
example, one of the challenges is it has cobalt, which is 
limited in supply, and the idea then is you're going to have to 
find new electrodes that perhaps are cobalt-free----
    Mr. Foster. Sure, well, the JCESR (Joint Center for Energy 
Storage Research) Program at Argonne, they're very--the----
    Dr. Green. Right, as just one example.
    Mr. Foster. Right.
    Dr. Green. There is research that needs to be done on a 
range of other battery chemistries, for example, sodium-ion 
batteries that perhaps may be more safe for long-term use and 
more sustainable.
    Mr. Foster. And now in areas like pumped hydro. I've been 
really impressed at how mature the technology came almost 
immediately, I don't know, by 1920 or 1930----
    Dr. Green. Right.
    Mr. Foster [continuing]. Essentially everything had been 
already optimized.
    Dr. Green. I wouldn't say it's already optimized, but it's 
certainly the most commonly used one, but it's only available 
in certain parts of the country.
    Mr. Foster. And so is the--is--well, maybe, I'll switch to 
Mr. Kiernan. You emphasize the importance of distribution 
network, and, you know, there are many concepts of this. 
There's, I guess, high-voltage DC overlays across the whole 
grid, you know, more speculative things like superconducting 
power transmission lines, which are actually, I believe, now 
being deployed at some scale. And so, again, what is the 
mixture of effort that you think would be optimum here, you 
know, technology development, system modeling in cases where 
things like high-voltage DC lines, the main problem is that no 
one wants NIMBY (not in my back yard)--to see new high-voltage 
lines and so the best response there would be robotic 
underground installation to drop costs. Where do you see the 
best bang for the buck both in R&D and demonstration?
    Mr. Kiernan. Let me share a big picture--in agreement, 
there are multiple enhancements to the grid with transmission 
that we are looking for. Yes, long-distance DC lines would be 
helpful and cost-effective I'll point out. As well, though, 
there are some shorter transmission lines that connect the 
seams on the grid. You have different grids throughout the 
country, and they don't often connect well between the 
different grids, so actually getting the different RTOs, the 
different grid operators to plan together where they might 
collectively build transmission lines across these seams 
between the different grids is also a really important way to 
advance the grid. So we've been encouraging Congress, as you're 
looking at your infrastructure bill and potential transmission 
enhancements, guidance that you can give to FERC to encourage 
the RTOs to do simultaneous planning or planning together is 
one way. Also different ways of giving FERC some type of 
backstop siting authority limited to encourage States to move 
the permitting process. Yes, permitting for transmissions 
difficult and there needs to be some incentives or 
encouragement, and Congress can be helpful there.
    Mr. Foster. Now, the seams you refer to have to do with the 
phase slippage between different sub-grids where you just can't 
connect them or that would be presumably solved with a DC 
overlay?
    Mr. Kiernan. In----
    Mr. Foster. Or----
    Mr. Kiernan [continuing]. Places that--normally, it's 
honestly just the seams between two different grids, and we 
just need more interconnects between the grids so they can move 
power. For example, up in the Pacific Northwest and then you've 
got California, having--they're doing some testing and some 
modeling right now of connecting those grids so that, for 
example, the Bonneville Power and all the hydroelectricity can 
move down to California when they need it, and when you've got 
extrasolar power down in California, it can get shipped up. 
That energy-imbalanced market that they're creating is proving 
very cost-effective to consumers, so more transmission lines 
that connect the grid allow you to save money for consumers 
because you're getting excess power from one region, moving it 
to another when they need it, and vice versa.
    Mr. Foster. So the difficulty is the energy imbalance 
rather than phase--multicycles of phase slip are sort of a 
thing of the past is what you're telling me?
    Mr. Kiernan. It is the energy imbalance----
    Mr. Foster. OK.
    Mr. Kiernan [continuing]. Where we can, with limited 
transmission, solve or address the problem.
    Mr. Foster. Thank you. And I'd be interested in specific 
research areas there that the government might consider 
investing in.
    Mr. Kiernan. We can offer that----
    Mr. Foster. My time is up and yield back.
    Chairman Lamb. Thank you. Mrs. Fletcher for 5 minutes.
    Mrs. Fletcher. Thank you, Chairman Lamb, and thank you, 
Ranking Member Weber, for holding this hearing today. Thank you 
to the witnesses for taking the time to testify.
    I am from Texas where we believe in an all-of-the-above 
energy approach. And many people know, of course, of Texas' 
long history in producing our Nation's energy, but many people 
are surprised to hear that Texas is the largest wind energy 
producer in the country and that we are producing about 25 
gigawatts of wind power, as the Committee Chairwoman noted in 
her comments this morning, and supporting nearly 25,000 jobs in 
wind energy in the State. We have three times more installed 
wind capacity than the second-highest-producing State, and in 
fact, there are only four countries in the world that produce 
more wind energy than Texas.
    Now, this wind energy surge was made possible after then-
Governor Rick Perry invested $7 billion for electrical 
transmission projects that connected West Texas with its 
abundance of wind potential to distant metropolitan areas like 
my own in Houston, which really is distant in Texas, as many of 
our panelists know with their connection there.
    So those new lines drew investments from industry into 
renewable energy and made us the leader that we are today. So 
in Texas we believe that there is a mix, there is a mix of 
different energy sources that's important, and that we believe 
that the government has a role to play, that industry has a 
role to play, and that academics and research have an important 
role to play in bringing all of these things together. And 
that's what we want to do is bring everybody together and look 
at what our energy future looks like.
    So I want to touch on a couple of follow ups to some of the 
questions that were asked today, in particular, Ms. Hopper. Mr. 
Casten asked you some questions about storage, as did Mr. 
Foster, and I think storage really is the linchpin to providing 
reliable power in the solar and wind sectors. And so what I 
would love is kind of sitting here today, from your 
perspective, do you have an estimate or a timeframe on what 
we're looking at for when we will have that reliable power 
source and more storage? What are kind of the estimates on that 
right now?
    Ms. Hopper. Sure, thank you for that question. And I just--
I just have to say, so Texas is the number-five solar State in 
the country now, and we think it will be number two in the next 
5 years, so I hope that you will consider broadening your 
perspective and thinking about Texas as not only a wind 
powerhouse but soon to be a solar powerhouse as well.
    Mrs. Fletcher. Yes, and we do, and I did not mean to skip 
that. Certainly in Houston we have many of those 10,000 jobs 
right in my backyard.
    Ms. Hopper. Absolutely. Absolutely. So Mr. Kiernan and I 
have the pleasure of having a good relationship with our 
colleague who's the head of the Energy Storage Association. 
They have--their goal is to have 35 gigawatts of storage 
deployed by 2025, so pretty short order. That level of 
deployment I think will be transformational in terms of 
providing reliable--so our power is reliable today, but in 
terms of what you're looking for, which is sort of that 24/7 
product, I think it will be transformational in providing that. 
So that's certainly the goal that the storage industry is 
looking toward, as the Congressman said. Sort of setting those 
benchmarks is important so that we can measure progress and we 
can direct our focus and our R&D investment to make that 
happen.
    Mrs. Fletcher. Great, thanks. And I have a follow-up 
question. There's one thing that we know as the energy capital 
of the world in Houston is that it is a global business, and 
one of my concerns--and I think you all know well--there is 
strong international competition to develop and commercialize 
solar and wind technologies. And it's often between the United 
States, European countries, and China. So could you explain how 
the DOE-led solar and wind energy R&D allows the United States 
to remain competitive and improve its economic competitiveness 
in these markets? Maybe, Dr. Green, can you talk about that for 
us?
    Dr. Green. We have remained competitive, and will continue 
to, provided we remain funded. The funding model where you have 
this interaction between academia, National Labs, and industry 
is a very effective one. DOE has, for example, the basic 
research supported by BES in some areas, together with EERE 
more to the applied end, this has been effective.
    If you look in terms of our scientific infrastructure as a 
Nation, we still remain the leader and our ability to advance 
renewable technology is largely based on this very advanced 
scientific infrastructure.
    Mrs. Fletcher. OK.
    Dr. Green. And so--yes.
    Mrs. Fletcher. Thank you. I want to get in one quick other 
question before my time expires. So maybe, Ms. Hopper, could 
you briefly touch on related issues like the impact of tariffs 
on imported solar panels that may make it difficult for solar 
companies to invest in research, development, demonstration, 
and commercialization activities even when they are facilitated 
by DOE?
    Ms. Hopper. OK. So thank you for that question. Obviously, 
the impact of both the solar-specific tariffs as well as the 
pancake effect of the--I can--just the aluminum tariffs and the 
other tariffs that have been imposed by this Administration 
have proved very challenging to our industry. They are 
additional costs. They're an additional tax to our consumers, 
and so that has made our product less competitive. The growth 
that we had anticipated over the last--so 2017, 2018 has been 
stalled, and so we have flatlined instead of grown, which has 
been frustrating.
    So if you--you know, obviously, I think all of the--many of 
the research that our companies do do in partnership with the 
Federal Government requires cost share, right, and so there's--
you have less product, less demand for your product, and less--
you know, it's more expensive, it's harder to invest in that 
R&D. And so it has--that has been one of the sort of things we 
haven't talked about as much, but that has certainly been one 
of the impacts of tariffs is that there is less opportunity for 
us to continue to invest in that R&D with the government.
    Mrs. Fletcher. And thank you very much. And thank you, Mr. 
Chairman, for your indulgence in letting me go over. I yield 
back my time.
    Chairman Lamb. Thank you. Ms. Stevens for 5 minutes.
    Ms. Stevens. Thank you, Mr. Chairman. And thank you to our 
witnesses.
    I represent a district in southeastern Michigan, the 
suburbs of Detroit, and Michigan has a robust wind and solar 
energy presence. I was very proud to lead a letter with about 
100 of my colleagues signing on with Mr. Paul Tonko to the 
Chairman of the Ways and Means Committee encouraging the 
Chairman to call for incentives for clean energy to be included 
in any tax-infrastructure package that we put forward. We're 
also thrilled in Michigan that we have Utility Workers Union of 
America with 10,000 employees who are playing a leading role in 
this space.
    But what I'd like to hone in on today is something that Mr. 
Stein said and has in his testimony in which he said that 
mature industries like the wind and solar generation sectors 
with extensive and dynamic economic activity are not in need of 
Federal interference, however well-intentioned. Mr. Stein went 
on to say that, while basic research is a reasonable Federal 
role, responsibility for later phases of the business cycle 
such as commercialization or deployment are best left in the 
hands of the industry itself.
    Ms. Hopper, in your testimony you devoted significant time 
to addressing the soft cost through targeted research and 
programming.
    And, Dr. Green, we're so proud of your work and what NREL 
represents and what you've been able to accomplish and achieve 
as a research institute. And what I'd like to do is just ask 
Ms. Hopper to hone in here so that we can be really clear about 
what we are talking about with the role of the Federal 
Government in commercialization of technologies where we need 
this convening power. So do you mind, Ms. Hopper, just chiming 
in a little bit about, without DOE's significant investments in 
solar energy technology research, where the industry would be?
    Ms. Hopper. So, first of all, thank you for the question 
and thank you for your leadership on the letter. I think it was 
a great message to send.
    So I'm happy to hone in on that. I think if you're--what I 
heard you asking me was sort of where would we be if not for 
the investments that have been made by the Federal Government? 
And I think we--if we look back to 2010, in 2010 we were at 0.1 
gigawatts of solar deployed in the United States. At the end of 
this year, we'll have over 70 gigawatts, so that's a big 
increase. I don't know the percentage. It's a huge increase, 
right, .1 to over 70 gigawatts.
    And that happened because costs came down. And costs came 
down because there was investment at the Federal--by the 
Federal Government in that basic research, right, in figuring 
out what are the materials that work. There was investment in 
the commercialization, sort of what--how do we take those--that 
basic research and make it so that it is commercially viable, 
right, at scale and at scope and at price? And then certainly 
how do we bring people together to solve problems that are 
really too big for one company to solve? So as I think about 
that, I think about soft cost. Obviously, I talked about that.
    One company is not incented to figure out how the entire--
you know, every building inspector in the United States is 
going to more efficiently inspect solar systems on roofs. One 
company is not incented to figure out the best way to integrate 
these different resources regardless of what kind of technology 
they are into the grid. One company is not incented to figure 
out cyber--so how do we solve cybersecurity? I mean, we have 
these--all these different ways that, you know, different entry 
points into the grid, many more than we're used to, so one 
company doesn't do that. And so I think our investment pays off 
in those situations. And storage we've talked about.
    And then I think similarly, as we think about sort of the 
convening power in solving some of these big questions 
together, the Federal Government is uniquely positioned to do 
that. And so we would be, I think--you know, I wouldn't be able 
to say 70 gigawatts. It would be a much, much smaller number at 
a much higher price.
    Ms. Stevens. Sure. Well, I'll also make note that we had a 
transition in the House of Representatives on January 3, and we 
have a new majority. And it's a robust majority, a lot on the 
docket particularly in terms of, you know, restoring the faith 
and trust in government, the doing and delivery for our 
country, and I'm so thrilled to see that our Democratic 
majority is here today engaging in this discussion in a way 
that is quite meaningful to the charge of the time, which is 
how do we capture an economic opportunity as well as address 
the challenges around energy efficiency and climate change? So 
kudos to our Chairman for bringing us here today.
    With remaining time if we don't mind I've got one more 
specific question for Dr. Green. Airborne wind technologies, 
you know, including those developed by a company that was 
previously supported by ARPA-E and now owned by Google have a 
lot of immense potential, and they still appear kind of far 
from this commercialization space. Could you speak to NREL's 
work with airborne technologies and the potential obstacles and 
opportunities for further development?
    Dr. Green. We're not doing very much in the direction of 
airborne technology. Our work is looking at land-based wind and 
offshore wind for the most part. At this point we're not 
looking in great detail to the airborne technologies.
    Ms. Stevens. OK. Do you--does NREL need further support for 
commercialization activities? If it's not in the airborne space 
but in other spaces that pertains to wind and solar or do you 
have what you need at this point?
    Dr. Green. No, I think what I articulated earlier in terms 
of the future of wind and the expansion and capacity--well over 
in order of magnitude from where it is today, there needs to be 
an enormous investment for us to get there.
    Ms. Stevens. Yes. Well, thank you. I have gone over my 
time, but I would like to close by applauding Mr. Stein for his 
support of basic research and applauding our witnesses for 
their support of research commercialization and leadership in 
the space of wind and solar.
    Thank you, Mr. Chairman. I yield back the remainder of my 
time.
    Chairman Lamb. Thank you. Mr. McNerney for 5 minutes.
    Mr. McNerney. Well, I thank the Chairman.
    Good morning, and I thank the witnesses for coming this 
morning. This is exciting. You know, I developed wind energy 
technology for 20 years before coming to Congress, and I loved 
doing it.
    As we both know or as we all know, the wind--the cost of 
wind and solar has decreased dramatically. The levelized cost 
of energy, 88 percent for solar and 69 percent for wind over 
the last decade. Now, you already got to answer that question, 
Ms. Hopper, so I'm going to ask Mr. Kiernan. What has driven 
the reduction in cost of solar, including basic research?
    Mr. Kiernan. You mean for wind, sir?
    Mr. McNerney. Wind, wind, yes.
    Mr. Kiernan. A couple of factors. One, it has been the 
lengthening of the blades. Dr. Green referred to that. That is 
an important development. It allows us to capture more energy 
having longer blades. Taller towers and all the digitalization, 
computer application inside the turbine and the management of 
the entire windfarm, all of those have been kind of the primary 
drivers for the dramatic reduction in the cost of wind energy. 
And I will say, given research that's going on at DOE and in 
the industry, we are anticipating continued reduction in the 
cost of wind energy.
    Mr. McNerney. Well, I like hearing that. Ms. Hopper, what 
are the biggest costs in residential solar installations? Do 
you have a way to answer that?
    Ms. Hopper. Certainly. The largest bucket of costs in 
residential solar installations are the soft costs, so those, 
as you know, the permitting, the inspections, and the time that 
it takes. We think that's about one-third or so of the costs. 
And those--bringing efficiency to that sector and sort of 
reliability and predictability to that I think will cause great 
decrease in the cost of residential solar. And so if--you know, 
Federal assistance in streamlining that could be incredibly 
impactful.
    Mr. McNerney. So you've sort of already answered this 
question, but the trade wars that we're now engaging in, is 
that going to increase the cost to the residential solar 
customer?
    Ms. Hopper. Yes, that's a good question. So the--just the 
solar-specific tariffs that were imposed year 1 were 30 percent 
tariff. We're now in year 2, so that's a 25 percent tariff. 
That--so that's an increase on the cost of the solar module, 
which is not the entirety of the project, but it is a 
significant portion, especially--you know, it's different in 
each market segment, but it's significant regardless, and so 
yes, it will--it has and will increase because one of the basic 
components has increased in cost.
    Mr. McNerney. What about cost on American jobs?
    Ms. Hopper. So as we looked--you know, we do a solar--The 
Solar Foundation does a solar census every year funded in part, 
I believe, by the Department of Energy, and that showed over 
the last--I think from 2017 to 2018 we lost about 8,000 jobs in 
the solar industry. Those are jobs actually lost. What it 
didn't capture because it's hard to capture are the jobs that 
were never created, right? So if you went back and looked at 
what our projections had been prior to the tariffs, we were on 
an upward trajectory. That--we flattened out and went down, and 
so I think there is another delta of opportunity not realized 
that's a little bit more difficult to capture.
    Mr. McNerney. Mr. Kiernan?
    Mr. Kiernan. If I can jump in on the wind side that 
absolutely the tariffs that are in place and being increased 
will increase the cost of wind energy in this country, harming 
consumers, increasing the cost of electricity to consumers 
because some of the important components we are importing, and 
those tariffs are increasing the cost. We have submitted 
testimony, and we can get it to you, testimony to the USTR 
(U.S. Trade Representative) about the particular number of jobs 
lost and increase in electricity cost to consumers and 
businesses as a result of these tariffs. It is deeply 
concerning to the industry.
    Mr. McNerney. Thank you. Mr. Green--Dr. Green, I did start 
my professional career at Sandia National Laboratories, but I 
spent many years at the National Wind Technology Center as 
well, windy nights, shaking trailers, and Chinook winds and so 
on. But somehow this Administration's budget has asked to 
expand the NWTC's office to better incorporate grid 
modernization research, including energy storage and diverse 
electricity generation sources. Why is the NWTC the right place 
for that?
    Dr. Green. It's the right place because right now, it has 
some key assets in addition to the wind machines and the large 
megawatt solar arrays; it has electrolyzers, a megawatt-sized 
electrolyzer, and in addition to that it has connections to 
other energy assets like high-speed connections to Idaho 
National Labs.
    It's going to be a place where people can begin to test and 
validate a range of new technologies, the hybrid technology I 
mentioned earlier, storage and generation. It's going to be 
able to, for example, understand how the new grid is going to 
deal with faults that exist. Earlier, we heard about trying to 
control on the voltage and frequency in the grid.
    This is the kind of place where we begin to test new 
technologies to understand how they operate before you take 
them out to the field. It's going to enable the grid of the 
future; the grid of the future is going to be an autonomous 
grid, and the kinds of experiments that are going to be done 
will be done at the Flatirons; they're going to be unique. 
There's no other facility in the world can actually do what we 
propose to do, and so it's very--it is going to enable what's 
needed for the future in that sense.
    Mr. McNerney. Well, thank you. I hope to get out there to 
visit you guys.
    Dr. Green. Well, we'd certainly love to see you.
    Mr. McNerney. I yield back.
    Chairman Lamb. Thank you. And Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you. And I thank you, Chairman Lamb, and 
Chairman--Chairwoman Johnson for allowing me to wave on and for 
holding this important hearing on these draft bills. I'm sorry 
I've had to miss some of the discussion. I was across the hall 
with a hearing that I'm chairing.
    But I've introduced versions of the Wind Energy R&D Act 
since my freshman term, so I'll be focusing on the wind element 
of today's hearing. Sorry about that, Ms. Hopper. But during 
that time, the industry has grown significantly. Clearly, these 
are great opportunities for domestic wind, but we should not 
pretend that challenges do not still remain.
    So, Mr. Kiernan, what are some of the biggest barriers the 
industry faces to further deployment? And can DOE's wind office 
help lower those given barriers?
    Mr. Kiernan. We perhaps refer to them as opportunities. We 
do see significant opportunities to continue reducing the cost, 
but we do need that primary and late-stage research, whether 
it's on transmission, as I've mentioned earlier, whether it's 
further digitization, improving the intelligence if you will of 
the management of a particular windfarm, integrating all of the 
different wind turbines on that windfarm, and better 
integrating wind onto the grid with solar, with storage, and, I 
mentioned earlier about enhancing the transmission. Designing 
that grid of the future is a significant opportunity. It's 
needed, and we are looking to the research capabilities of DOE 
to lead in that effort.
    Mr. Tonko. Thank you. And in 2015 DOE updated its Wind 
Vision report setting a target of 35 percent of U.S. 
electricity generation from wind power by 2050. We know that 
our Nation has excellent wind resources, particularly from 
Texas to the Dakotas, but DOE and NREL also published a report 
called ``Enabling Wind Power nationwide.'' This report found 
that taller towers, larger blades, and more efficient turbines 
can unlock wind's potential in many other regions, including 
the Southeast.
    So, Mr. Kiernan and Dr. Green, what are some of the 
challenges to developing taller and more efficient turbines, 
and can DOE research help?
    Mr. Kiernan. DOE's research is helping. I'll yield to you, 
Dr. Green, in just a second. Thinking through both, as was 
mentioned earlier, the atmospheric issues at that higher 
elevation are extraordinarily complex. We don't have the 
modeling or the capability to do that. They do. Also, some of 
the logistics. A tall turbine is tough to get to that site, so 
thinking through those logistics as equally complex as the 
longer blades, maybe having segmented blades, so these are 
challenges that we do look to assistance and leadership from 
DOE given their unique capabilities industry does not have.
    Mr. Tonko. Thank you. Dr. Green?
    Dr. Green. You characterized it well. I would add one 
additional thing; it's that as you make these taller and taller 
towers, they're going to have to be limited in weight and 
they're going to have to be cheaper and so this means new 
materials and new processes, and that's where the new research 
is actually going to happen.
    Mr. Tonko. Thank you. And while some may suggest that wind 
energy is fully mature, I believe there are numerous ways in 
which there are still nascent aspects of the industry and 
substantial room for greater innovation. For example, there are 
emerging issues that must be addressed in order to unlock our 
Nation's offshore wind potential, including floating platforms 
in the Pacific, which have not yet been commercialized, as well 
as distributed wind deployment.
    So, Mr. Kiernan, what are some of the ways that industry is 
hoping to continue to be able to be innovative and to improve 
technology development, reduce costs, and enhance grid 
integration?
    Mr. Kiernan. Let me build off of your one example with 
which I agree, and that is for offshore wind, the floating 
turbines, which are to date viewed as notably more expensive, 
but a lot of people think that, as we figure out that--how to 
do the floating turbines and are able to standardize that 
process, they may end up actually less expensive than the 
current kind of monopile attached to the seafloor bed because 
we can take that to scale. So a good example, having the 
research for floating turbines may in the long run dramatically 
both reduce the cost and obviously enable offshore wind to be 
all over, whether East Coast, West Coast, wherever 
appropriately sited, we don't have to be only in certain 
limited depths.
    Mr. Tonko. And do you believe that the Wind Vision targets 
are likely to be achieved without sustained Federal RD&D 
investments?
    Mr. Kiernan. We need DOE's additional funding to hit the 
Wind Vision targets. We were involved in the creation of Wind 
Vision, very much support that vision, do see it as a 
partnership. The industry is providing--obviously investing 
$12, $13 billion a year in this industry, and we look to the 
unique capabilities and roles that DOE can play to assist us. 
Even though, yes, we're providing dramatic private investment, 
we need them as a partner.
    Mr. Tonko. Well, and thank you. And just to sum it up, does 
Federal RD&D for wind energy support United States jobs, 
private investments, particularly in rural communities, and 
clean-energy deployment?
    Mr. Kiernan. We would not have the 114,000 jobs we have and 
the investment that we're doing annually of $1 billion a year 
in rural America were DOE not a partner with us through their 
R&D work.
    Mr. Tonko. Well, I thank you, and I yield back and hope 
that we can move a version of this bill this Congress. And with 
that, I thank you again, Mr. Chairman.
    Chairman Lamb. OK. Before we bring the hearing to the 
close, I want to thank our witnesses again for testifying 
before us today.
    The record will remain open for 2 weeks for additional 
statements from Members and for any additional questions the 
Committee may ask of the witnesses.
    The witnesses are now excused, and the hearing is 
adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]

                                 <all>
</pre></body></html>
